<html>
<title> - RECENT DEVELOPMENTS IN THE INVESTIGATION OF THE MURDER OF HUMAN RIGHTS ATTORNEY PATRICK FINUCANE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                RECENT DEVELOPMENTS IN THE INVESTIGATION

                     OF THE MURDER OF HUMAN RIGHTS

                       ATTORNEY PATRICK FINUCANE
=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2013

                               __________

                           Serial No. 113-59

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
80-938                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Michael Finucane, son of slain human rights attorney Patrick 
  Finucane.......................................................     5
Brigadier General James P. Cullen, USA, Retired, human rights 
  attorney.......................................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Michael Finucane: Prepared statement.........................    10
Brigadier General James P. Cullen, USA, Retired: Prepared 
  statement......................................................    23

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Submission by Jane Winter, former director of British Irish 
    Rights Watch.................................................    42
  Patrick Finucane: The Fight for Justice........................    50
  Statement on the publication of the De Silva Report into the 
    murder of Pat Finucane.......................................    54


                       RECENT DEVELOPMENTS IN THE

                     INVESTIGATION OF THE MURDER OF

                 HUMAN RIGHTS ATTORNEY PATRICK FINUCANE

                              ----------                              


                        WEDNESDAY, MAY 15, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. Good 
morning to everyone.
    I would like to extend a special welcome to our witnesses 
and everyone joining us here today. I do see many old and close 
friends in the room today, and I want to welcome you to this 
hearing.
    Our purpose today is to assess progress on the unfulfilled 
British commitment, a broken commitment, unless the British 
Government reverses its current course, in the Pat Finucane 
collusion case and how this affects the peace process in 
Northern Ireland.
    In connection with the Good Friday Agreement, the British 
Government promised to conduct public inquiries into the 
Finucane and three other cases where government collusion in a 
paramilitary murder was suspected.
    Subsequently, the British Government backtracked in regard 
to the Finucane case, the 1989 murder of human rights lawyer 
Patrick Finucane. The British backtracking came despite the 
recommendation to hold an inquiry, which again the British 
Government agreed to abide by, of the internationally respected 
jurist and former Canadian Supreme Court Justice Peter Cory in 
2004.
    At this point, I would like to thank Judge Cory again, who 
testified about his recommendation at a congressional hearing 
that I chaired in May 2004. That is now 9 years ago, and we are 
still trying to get the British Government to live up to its 
commitment.
    The Finucane family has testified at many hearings. 
Geraldine, Patrick's widow, and his son, John-Michael Finucane, 
who is testifying today, first testified before Congress on 
this in 1997 in a hearing before this subcommittee, so that is 
now 16 years ago. And, of course, there have been many others. 
And all of these witnesses advocates and experts have advocated 
a full, independent, and public judicial inquiry into the 
police collusion with Loyalist paramilitaries responsible for 
brutally murdering Patrick Finucane.
    Over these years, the dedicated human rights activists and 
experts have established much of what has happened, and after 
facts have been established, the British Government has 
acknowledged many of them. In 2011, the British Government 
admitted that it did collude in the Finucane murder and 
apologized for it.
    Much of the credit for this admission goes to the many of 
you who have done the work, the hard work, on all the reports 
that documented collusion until it was pointless for the 
British Government to continue denying it.
    So that is progress. But the work is not done because the 
British Government has reserved one final yet massive 
injustice. It continues to protect those responsible for the 
murder of Patrick Finucane. Prime Minister Cameron told the 
Finucane family that the government would not conduct the 
promised public inquiry into the collusion.
    The deliberate decision not to proceed with the public 
inquiry is a glaring public breach of faith. It is the source 
of enormous frustration to Patrick Finucane's family and 
friends. It resonates throughout Northern Ireland, calling into 
question the British Government's commitment to peace, 
reconciliation, and, above all, justice. This is particularly 
sad because the British Government has taken so many other 
positive truly honorable steps, many of them more painful for 
large sectors of the British public and public opinion, such as 
the Bloody Sunday Inquiry, released in 2010. To call of that 
into question by reneging on the promised Finucane inquiry is a 
tragedy. It is a preventable tragedy, however.
    Most recently, in December 2012, Sir Desmond de Silva 
released a new report on collusion in the Finucane murder, 
really a review of existing case files rather than a gathering 
of new evidence that the promised inquiry would produce. The de 
Silva report detailed what Prime Minister Cameron admitted were 
shocking levels of state collusion. Let me repeat that: The de 
Silva report detailed what Prime Minister Cameron admitted were 
shocking levels of state collusion in the murder, including 
that it was RUC officers who proposed the killing of Finucane, 
passed information to his killers, obstructed the 
investigation, and that British domestic security and 
intelligence knew of the murder threats months before the 
actual crime, yet took no steps to protect him.
    It is admirable that the Prime Minister has admitted 
collusion and apologized for it, but it is really too much to 
admit a government crime and then say it will not be 
investigated, particularly when the government has undertaken a 
commitment to do so.
    The question asks itself: After so many positive steps, is 
the British Government really going to diminish the good it has 
done since 1998 in order to protect the identity of people who 
share responsibility for a brutal murder?
    At this moment, I would like to say that I will be asking 
Members of Congress to sign a letter to the Prime Minister 
urging him to conduct the promised inquiry. Many Members of 
Congress have repeatedly called for this, including the passage 
of two of my congressional resolutions, H. Res. 740 in the 
109th Congress and H. Con. Res. 20 in the 110th Congress.
    I now would like to yield to my friend, Mr. Weber, for any 
comments that he might have.
    Mr. Weber. Thank you, Mr. Chairman.
    I appreciate your holding this hearing. In the interest of 
time, I am going to limit my remarks and say let's get going. 
Thank you.
    Mr. Smith. I would like to yield to my friend and 
colleague, Richard Neal.
    Mr. Neal. Thank you, Mr. Chairman. Thank you for using your 
committee assignment to keep this issue in front of the 
American people. I have, as you know, for decades pursued many 
of these cases, a reminder today of how we have been vindicated 
in many of these instances: Guilford, Birmingham, Joe Doherty, 
the deportees, and, of course, Bloody Sunday.
    For those that question the efforts that many of us have 
made over these years, I would remind all of a conversation I 
had with those families when Prime Minister Cameron took to the 
floor of Commons and apologized for what had happened on Bloody 
Sunday. I talked to those families within hours of that 
apology. The joy that overcame them, the tears with which they 
greeted me on the phone, indicating that but for America's 
interest many of those cases perhaps would not have been 
brought to light, those families knew full well that none of 
their loved ones had been involved in triggering the events of 
Bloody Sunday, as was the case with the other examples I have 
already noted.
    I have known the Finucane family for a long, long period of 
time, and Geraldine Finucane deserves the full inquiry that was 
once promised by the British Government. I have spoken with 
various British Prime Ministers, Secretaries of State and other 
senior officials for many years. A full inquiry would bring 
about justice. And let me also say so do the families of 
Rosemary Nelson, Raymond McCord, Robert Hamill, and Billy 
Wright.
    We note today that there has been great progress, as I 
heard from you on the way in. Various British Prime Ministers 
have certainly changed the tone of the conversation over these 
years, and indeed, we should all be very grateful. But much of 
the incentive came from the American people, who demanded that 
these inquiries be fully accepted and introduced.
    But the Finucane family deserves more than an apology. They 
deserve the full and independent inquiry that was promised 
earlier by Prime Minister Blair and what we thought was going 
to be a position adopted by Prime Minister Cameron. Recent 
evidence indicates that this inquiry is needed now more than 
ever. Prime Minister Cameron and many of his advisers have 
recently disclosed correspondence that certainly makes clear 
what should be taking place. Jeremy Heywood has described the 
killing as ``far worse than anything alleged in Iraq or 
Afghanistan.''
    And I have offered a letter that I know my colleagues will 
sign urging Prime Minister Cameron to hold a full inquiry that 
was once promised.
    We know there was collusion in this case. Now we have to 
find out who was responsible. The changes that we have all had 
a chance to witness in these ``it will never happen moments'' 
have been extraordinary, but much of that impetus has come from 
Members of the United States Congress as we have pursued these 
inquiries. These were sectarian, brutal assassinations, and in 
particular, the Finucane case is in my mind one of the most 
egregious, largely because of the manner in which it was 
undertaken, in full view of his family on a quiet day, when all 
security forces and members of the RUC at the time were removed 
so that this assassination could take place.
    And I appreciate the fact, Mr. Chairman, that you have used 
again your committee assignment to keep this matter in full 
view of the American people.
    I am currently co-chairing a get-together at the Ways and 
Means Select Committee on Revenue, so I departed there to get 
over here.
    And I did want to thank two of my friends here from the 
Finucane family and General Cullen, who has been a great, great 
advocate on our behalf all of these years.
    Thank you very much, Mr. Chairman.
    Mr. Smith. Mr. Neal, thank you very much for joining us. I 
thank you for your fine work over these many years.
    Mr. Crowley.
    Mr. Crowley. Thank you, Chairman Smith, for holding this 
hearing. You have been a stalwart wall and someone who has not 
let rhetoric get in the way of justice on so many issues, but 
particularly on this particular issue. I have had my own 
experience, many years of following this case, in particular. I 
know it is also an issue that Mr. Neal has dedicated a great 
deal of time to as well. So this has been very, very 
bipartisan.
    What happened to the Finucane family is something that 
never should have happened. It wasn't right then, and it is not 
right to cover up what took place now. The fact is we are here 
today because of unfulfilled promises by the British 
Government. The British Government committed to a full and 
independent inquiry into cases of collusion, but that promise 
was not and has not been kept. This is a problem for many 
people, including those of us who supported wholeheartedly the 
Good Friday Agreement.
    I am very much a believer in the Agreement. I have praised 
all parties for taking risks to make that agreement a reality, 
and that included and does include the British Government. That 
was a landmark agreement because it was one that has worked, 
and I want to do everything possible to protect the agreement 
and keep the peace.
    I believe there can be no turning back from the Good Friday 
Agreement, although there are many who would like to do just 
that. Part of that, however, is honoring the commitments of 
Good Friday as well as the follow-up agreements at Weston Park 
and elsewhere. When the British Government committed at Weston 
Park to carry out a full inquiry, we believed that they meant 
it. They shouldn't back away from it now.
    I don't have real questions today for the panel. I am here 
for the Finucane family, and I am here in the search of 
justice. I agree that Prime Minister Cameron needs to call for 
a thorough, full, and independent inquiry into the murder of 
Patrick Finucane. Nothing short of that will be acceptable to 
people who are seeking justice in the North of Ireland and, 
quite frankly, around the world.
    So, Mr. Chairman, once again, thank you for your dedication 
to this particular issue, and to the ranking member as well, 
thank you for inviting me to be here. Thank you.
    Mr. Smith. Mr. Crowley, thank you very much for your 
statement, for your leadership over these many years.
    As you pointed out, this is an issue on which there is 
total bipartisanship and agreement that this is a matter of 
justice, and justice delayed is justice denied, but my deepest 
concern is justice delayed in perpetuity is an outrage.
    Ms. Bass.
    Ms. Bass. Thank you, Chairman Smith, for holding today's 
hearing on the recent developments in the murder of human 
rights lawyer Patrick Finucane.
    I understand that you and a number of our colleagues have 
continued to advocate for greater accountability and a sincere 
public apology in the days and years after Mr. Finucane's 
death. I hope that today's hearing increases awareness among 
our colleagues and leads to a truthful accounting of that fatal 
evening.
    To Mr. Finucane, let me over my deep appreciation to your 
commitment to participate in this hearing and to your tireless 
efforts to keep the memory of your father alive and in the 
public eye. Your courage and strength are apparent, and you 
make your family and the memory of father proud.
    I yield back my time.
    Mr. Smith. Thank you, Ms. Bass.
    I would like to now introduce our two very distinguished 
witnesses. First, we will hear from Michael Finucane, the son 
of Patrick Finucane. Michael was there, along was his mom and 
two siblings, and I would note parenthetically, we all know his 
mom Geraldine was wounded in that horrific attack when 
assassins entered the Finucane home and took his father's life.
    Today Michael is a solicitor in Dublin with his own legal 
practice. He has been deeply involved in the Finucane family's 
efforts to secure the full independent public judicial inquiry 
that was promised in 2001 by the British Government.
    We are grateful for your presence here today, Michael, to 
tell us about where we are in the quest for justice in your 
father's case, which of course has a direct impact on the quest 
for peace and reconciliation in Northern Ireland.
    We will then hear from Brigadier General, retired, Jim 
Cullen of the U.S. Army Judge Advocate's General Corps.
    In addition to his military career and career in private 
law practice, Mr. Cullen has been involved for many years with 
human rights groups focusing on Northern Ireland, including the 
Brehon Law Society of New York of which he served as the first 
president.
    Welcome to you, General.
    Mr. Finucane.

 STATEMENT OF MR. MICHAEL FINUCANE, SON OF SLAIN HUMAN RIGHTS 
                   ATTORNEY PATRICK FINUCANE

    Mr. Finucane. Thank you very much, Mr. Chairman.
    I would like to offer my sincerest thanks to you and to all 
members of the committee and Members of Congress who have 
supported my family this many years. I have submitted a longer 
statement, which I ask be read into the record, but I am going 
to make a shorter statement for the purposes of this hearing.
    As is now a matter of public record throughout the world, 
Pat Finucane, my father, was a lawyer practicing in Northern 
Ireland during the period of civil conflict. He specialized in 
criminal defense law and developed particular expertise in 
defending people charged with offenses under the emergency 
laws. As a result of his innovative approach to his work and 
the successes that flowed from it, he became a target for 
Loyalist paramilitary elements who perceived him as partisan 
and an enemy of the British State. This much has been known for 
some time as a result of incidents that took place during Pat's 
lifetime and some of the evidence that has been revealed since 
his murder.
    We now know that this perception of Pat Finucane as being 
sympathetic to his client's beliefs and even that he engaged in 
unlawful activity on their behalf was fostered actively by the 
British Security Service, MI5, encouraged by the Royal Ulster 
Constabulary's Special Branch and known about by the British 
Army's undercover unit, the Force Research Unit. These agencies 
of state sought to besmirch Pat's name and professional 
reputation, to encourage support for the claim that he was a 
member of the Provisional IRA or working on their behalf and to 
encourage the notion that he should be assassinated.
    We know beyond any doubt that all of these agencies were 
aware that Pat's life was in serious danger on at least three 
occasions before he was murdered, but they decide not to warn 
him. We know this and much else besides as a result of the 
review recently conducted by Sir Desmond de Silva, Q.C., who 
was appointed by the British Government in 2011. It is this 
review that provides the impetus for this hearing, although the 
work of de Silva is not what was originally promised.
    A comprehensive mechanism was promised by the British 
Government to investigate the case of Pat Finucane, but it has 
not yet been delivered. The case was supposed to be the subject 
of a public judicial inquiry, but the British Government has 
declined to establish one, despite agreeing to do so during 
negotiations as part of the Northern Ireland peace process in 
2001.
    In the 24 years since the murder, my family and I have 
campaigned relentlessly for a public judicial inquiry into the 
circumstances. In the earliest years, we were met with denial 
and refusal by the government and were told that accusations of 
collusion between the state and Loyalist paramilitaries in the 
murder were without foundation.
    For example, in January 1993, the Northern Ireland Office 
went so far as to write in response to a draft report prepared 
by the U.S. Lawyers Committee for Human Rights that their 
analysis ``scarcely justifies your conclusion that there is 
sufficient evidence of the Security Forces' prior knowledge of 
the murder plot and encouragement of it to justify an 
independent public inquiry.'' They went on to say, ``The 
shortcomings of the draft report are such that in its present 
form it is not capable of being constructively amended.'' The 
RUC responded similarly by saying, ``A particularly serious 
disservice is done to the agencies responsible for the 
administration of justice and law enforcement.''
    It is now clear that these responses from the various 
agencies, police, intelligence, government, and army, were 
nothing less than blatant lies. The State was clearly culpable 
in the murder of Pat Finucane. Documentary evidence exists to 
prove this. The State simply could not afford to admit to its 
involvement in a crime as heinous as the murder of one of its 
own citizens who was at the same time an officer of its own 
courts.
    We now know this so definitively, partly as a result of the 
review carried out by Sir Desmond de Silva and the material he 
caused to be published and the work of many others. It is clear 
now that the British State agencies knew Pat Finucane was a 
target for many years before he was killed but decided not to 
do anything to warn or protect him.
    Although Pat was murdered in 1989, his life had clearly 
been in serious danger as far back as 1981. Various agencies 
were aware of the threat, including the police, the 
intelligence services and British Army Intelligence. Documents 
have been published to reveal meetings took place to discuss 
the threat against his life and an official decision was taken 
not to warn him that a murder attempt was imminent on more than 
one occasion because it would have exposed an informant to an 
unacceptable level of risk.
    These are just some of the facts behind the murder of Pat 
Finucane. Until now, they have not come to light. But the 
strength of suspicion over the case, a suspicion that was 
proven to be completely justified, despite official denials, 
demands a comprehensive response.
    In the absence of any other appropriate mechanism, a public 
judicial inquiry became the demand my family made. It was 
resisted for many years until, in 2001, during peace 
negotiations the British and Irish Governments agreed to 
establish an inquiry into the case if an independent judge of 
international standing recommended that there should be one. 
That judge was former Justice of the Supreme Court of Canada 
Peter Cory. He recommended a public inquiry in 2004, following 
the publication of a lengthy and comprehensive report. Thus 
began a long process of delay and further denial by the 
government, as faced with the honoring of their promise of an 
inquiry they welched.
    Much time passed, but then, in 2011, a decision was taken 
by the current government as the manner in which Britain would 
finally address the case of Patrick Finucane. It would not be 
through the mechanism of a public inquiry, despite the earlier 
promise so hold one. Instead, a review of the papers in the 
case would take place and a government-appointed lawyer would 
be installed to scrutinize official documents and produce a 
report. My family would not be permitted and was not permitted 
to see any of these documents prior to publication nor would we 
be allowed to hear witnesses called to give evidence or ask any 
questions. In short, we would be allowed to do nothing more 
than accept the findings of the reviewer without be able to 
assess any of the evidence for ourselves.
    My family was invited to 10 Downing Street in October 2011 
to be told that this review process was to be established. We 
had been in discussions, which we had entered into in good 
faith, with the government for over a year prior to this visit. 
When we were invited by the Prime Minister to come to Downing 
Street we expected to be told that the commitment given 
previously would be honored and that a public judicial inquiry 
would be established without further delay.
    We had always known that the promises of the government 
should not be regarded as gospel. However, we dared to believe 
in the possibility that with the onset of peace in Ireland, the 
British Government might make good on its commitment. Not only 
were we proved wrong in this, we were forced to endure a 
process of public embarrassment that was cruel and unnecessary.
    It has been long believed that the issue of British State 
collusion with Loyalist paramilitaries was a deep-rooted and 
officially sanctioned policy of selecting targets based on 
their degree of opposition to the state. The more troublesome 
the individual, the more likely the state was to deploy its 
killers by proxy to erase the problem.
    If the report of de Silva has any value at all, it is to be 
found in the extent to which it confirms beyond any doubt that 
this was the approach of the British State in Northern Ireland, 
certainly throughout the 1980s and possibly beyond. A lawyer 
like Pat Finucane, who was much too effective at his job for 
the State's liking, would make himself a target for reprisal. 
The extent of collusion was therefore such that the State could 
kill anyone it wanted to with complete and absolute 
deniability. This was the policy of collusion, a modern Irish 
holocaust. The one question that has not yet been answered is, 
how much perished as a result of it? Certainly, Pat Finucane 
was not the only victim.
    Perhaps the most succinct description of the case to emerge 
in recent years was contained in a letter written by a senior 
British Security Advisor to the current Prime Minister David 
Cameron. This has only just been made public as a result of 
court proceedings, and it was written July 2011. The advisor 
said, ``Even by Northern Ireland standards, the facts are 
grisly. Moreover, in terms of allegations of British State 
`collusion' with Loyalist paramilitaries, this is the big one . 
. . exhaustive previous examinations have laid bare some 
uncomfortable truths. Paid agents were directly involved in the 
killing, including the only man ever convicted of involvement 
in it . . . of Lord [John] Stevens' conclusions paint a picture 
of a system of agent running by the RUC's Special Branch and 
the [British] Army's Force Research Unit that was out of 
control.'' He went on to say, ``Some of the evidence available 
only internally could be read to suggest that within government 
at a high level this systematic problem with Loyalist agents 
was known, but nothing was done about it. It's also potentially 
the case that credible suspicions of agent involvement in Mr. 
Finucane's murder were made known at senior levels after it and 
nothing was done; the agents remained in place.'' He concluded 
in a follow-up letter by saying, ``This was an awful case and 
as bad as it gets and was far worse than any post-9/11 
allegation.''
    This is the summary of a security advisor from within the 
British establishment. The contents of his letters were not 
public until a recent court hearing in Belfast brought them to 
light. We have had to resort to litigation against the 
government in order to force them to reveal information of this 
nature and to establish the public inquiry we were promised. We 
should not have to do this. We should be reading the material 
in the context of a public inquiry, the one that was promised 
in 2001 and the one that has been required since 1989.
    On behalf of my family, Mr. Chairman, I ask for the support 
of this committee, the support of the House and all of 
Congress, to use its influence and to persuade the British 
Government to honor its longstanding promise to establish a 
public judicial inquiry into the murder of Patrick Finucane.
    Thank you very much.
    [The prepared statement of Mr. Finucane follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Finucane, thank you very much for your 
extraordinary work over these many years on behalf of your 
father and that of your entire family. Not only are you seeking 
justice for an individual brutally slain, assassinated right in 
front of your own eyes, but this is also a very important 
symbol for peace, reconciliation, and, above all, justice. You 
have done an incredible credit to your father's memory and your 
other family members as well for keeping this front and center 
before the world. So thank you so much.
    General Cullen.

 STATEMENT OF BRIGADIER GENERAL JAMES P. CULLEN, USA, RETIRED, 
                     HUMAN RIGHTS ATTORNEY

    General Cullen. Thank you, Chairman Smith and also members 
of the subcommittee, for this opportunity to appear before you 
today. My name is Jim Cullen. As the chairman mentioned, I am a 
retired Brigadier General of the U.S. Army Judge Advocate 
General's Corps and last served as Chief Judge IMA of the U.S. 
Army Court of Criminal Appeals.
    I first met Pat Finucane when he came to the United States 
to serve as an expert witness in a political asylum case, and I 
just wanted to mention today my interaction with one of the men 
involved in the murder of Pat Finucane.
    An interested group in New York put an ad in the Belfast 
Telegraph, the main Unionist newspaper, offering a reward for 
information about Pat's murder. To my surprise and their 
surprise, we received a call within a day after the reward 
notice was posted. And we arranged to meet the following 
weekend in a hotel outside of Dundalk near the border in 
Northern Ireland with the person who was represented to be part 
of the team that killed Pat.
    When we met, the person who called me introduced me to 
William Stobie, otherwise known as Billy. There was a 
preliminary discussion about the confidentiality of the meeting 
and the terms of the reward, and I explained to them that we 
were not after information about the Loyalist killers 
themselves. We had fairly good indications about who they were. 
Rather, we had received information from the UK that the murder 
had been commissioned by two upper level officers in the Police 
Special Branch, and it was information about them that we 
sought.
    Mr. Stobie went on to speak to me for about 2 hours. He 
very credibly said at the outset that he would not have been 
trusted with information about the Special Branch, even though 
he knew that the terms of our reward offer was dependent upon 
that information. He explained that he had been recruited by 
the UDA, one of the Loyalist death squads, to be their armorer 
and quartermaster in a section of Belfast.
    He had served in the British Army for about 6 years and he 
had been trained as an armorer, that is a person who is trained 
to fix light weapons. He had run up a debt in a Loyalist 
drinking club, and they gave him a choice: He could either 
become their armorer and safeguard and store their weapons, and 
the other alternative wasn't so pleasant.
    Now, not long after he was recruited by the UDA, he 
participated in the murder in 1987 of an innocent young 
Protestant student, Brian Lambert, who was mistaken for a 
Catholic. Soon after that murder, he was approached by the 
Special Branch and recruited to be their agent with the 
understanding that nothing would happen to him for Brian 
Lambert's murder. A co-actor in the murder was prosecuted.
    Stobie was told about 2 years later, on or about February 
6, 1989, to have two pistols ready to deliver for an operation 
the following Sunday. He said the UDA told him that the target 
was a ``top Provo'' living in north Belfast, but he was not 
told the identity of the target.
    He said he called his Special Branch handlers the very same 
day and related what he had been instructed to do by the UDA, 
including the location of where he was to deliver the weapons 
the following Sunday morning. He later contacted his Special 
Branch handlers in the week following, he thinks on Wednesday, 
and they confirmed that he was to go ahead as instructed by the 
UDA.
    The following Sunday morning, he went to a Loyalist 
drinking club quite early in the morning, and as he pulled up, 
he noticed parked across the street from the entrance to the 
drinking club an unmarked car, in which sat one of his 
handlers, and there was another man in the car whom he didn't 
recognize. He went into the club and turned over two pistols to 
the hit team near the exit of the club. He emerged from the 
club, went to his car. He was followed out by the hit team. He 
waited until they left, and he followed them out. And then he 
noticed something quite strange. Instead of the unmarked police 
vehicle following the hit squad, they made a U-turn and went in 
the opposite direction.
    He went home. And then he had the radio on later that 
evening, and he heard about the murder of Pat Finucane. He knew 
immediately who had been the target for the operation for which 
he had been instructed to provide the weapons.
    Stobie was contacted by the UDA on the following Tuesday 
after the murder, and he was told to dispose of the weapons in 
accordance with some instructions he was given. He picked up 
the two weapons where they had been left for him. He called the 
Special Branch and told his handlers that he had the hot 
Browning, he misidentified it as a Heckler 9 millimeter, which 
was the principal weapon used in the murder.
    The Special Branch told him to follow the UDA's 
instructions, and they sent an unmarked Land Rover to meet him. 
He and the Special Branch man drove to the Ardoyne area and 
were followed by a helicopter--he didn't know whether it was 
army or police helicopter--who were watching the vehicle as it 
proceeded. When they arrived, Stobie gave the weapons to a man 
he called David Anderson.
    Stobie told me that he realized the UDA began to suspect he 
was an informer, and then, in 1992, he was shot several times. 
Inconveniently for the UDA, the Special Branch and the army, he 
survived. He was visited in the hospital by a UDA boss who told 
him it had all been a mistake. Well, Stobie had sufficient 
street smarts to know that it hadn't been a mistake, and he 
decided he needed to acquire an unconventional life insurance 
policy. So he approached a newspaper reporter, told him his 
story with the expectation that the reporter wouldn't say 
anything. But after he told his story, this particular reporter 
told him he had just accepted a position as the chief press 
officer of the Northern Ireland office. So Stobie then realized 
he needed a backup insurance policy, and he went to a second 
reporter, again related the story with the understanding that 
nothing was to be disclosed unless Stobie gave permission or 
unless something happened to Stobie.
    He then let it be known to some of his UDA acquaintances 
that he had made ``arrangements'' in case anything happened to 
him, and he thought he would be okay. It was that second 
reporter who contacted me in response to the reward notice.
    Thereafter, the police planted two pistols in his mother's 
home. He realized that he was, to use his term, being stitched 
up or framed to get him out of the way. He also realized that 
if that effort wasn't successful, he was likely to again be a 
target because Lord Stevens had begun his third inquiry in May 
1999, and Stobie quite rightly figured that the Special Branch, 
the army intelligence unit known as the FRU, and the UDA saw 
him as a weak link. He did have a drinking problem, and they 
figured if an investigation began, he might talk. So Lord 
Stevens did confirm in his 2003 report that he did identify 
Stobie as a person of interest very early on in his 
investigation.
    Stobie saw our reward as an opportunity for him, his wife 
and his mother to start a new life in Canada, and that is why 
he wanted to talk to us. When I told him we could only pay the 
reward if we had the information about the Special Branch 
handlers, I suggested to him that if he knew somebody else who 
was involved who would have that knowledge, we would pay the 
reward. We didn't care how they whacked it up among themselves. 
I gave him $2,000. I gave it to his attorney in his presence as 
a good faith demonstration that we were prepared to pay the 
money, as we were.
    Stobie was later arrested as a result of evidence gathered 
by the Stevens inquiry, but the case against him collapsed in 
November 2001 when a key witness, that first reporter, claimed 
that he couldn't testify because of problems in his own mental 
state. And I can just imagine what those problems were.
    Then on December 12, 2001, Stobie was murdered by the UDA. 
They were successful this time. And this was after he had made 
it known that he would be willing to testify in an inquiry into 
Pat Finucane's murder. He stated that he would not name the 
Loyalists involved, but he was prepared to name the police 
handlers or at least their code names because he didn't know 
even the real name of his own handler.
    In a statement made by a masked paramilitary after his 
killing, it was claimed by the paramilitary, ``Billy Stobie 
could have stayed on the Shankhill and been left alone had he 
not spoken out on Ulster television and backed the public 
inquiry into Pat Finucane's killing.'' Clearly, it was the 
Police Special Branch and the Army Force Research Unit who were 
really worried about the possible impact of Stobie's 
disclosures. The prior knowledge of the Special Branch and the 
FRU about the murder together with the unquestioned 
coordination of those two branches, because you cannot run 
multiple intelligence operations in the same theater without 
having coordination at the top--there is going to be turf wars; 
there are going to be issues over who controls what 
intelligence assets. So we know that the head of Special Branch 
and the head of Military Intelligence in Northern Ireland were 
members of a so-called Task Coordinating Group. They in turn 
reported to the Joint Intelligence Committee in London. These 
kind of operations just didn't happen by some cowboy being out 
of control. It was coordinated.
    Today, we are faced with the situation in which faceless 
securocrats and their political protectors have successfully 
neutered of the rule of law in Northern Ireland and have sadly 
intimidated the current political leadership in the UK.
    Thank you, Mr. Chairman and members of committee.
    [The prepared statement of General Cullen follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. General, thank you very much for your very 
extensive work and testimony today. It is greatly appreciated 
by this subcommittee.
    I have a couple of questions I would like to start off 
with. You know, there is no statute of limitation, as we all 
know, on murder cases. Even in cases of Medgar Evers' murder 
and the Birmingham girls that were firebombed, causing four 
girls to lose their lives, they were reopened, retried years 
later due to continued investigation. I would note 
parenthetically that Evers was murdered in front of his family 
in a way that is very similar to and parallel to Patrick 
Finucane's murder.
    So this, it seems to me, is a very disturbing bit of 
unfinished business. The public inquiry certainly would bring a 
great deal of scrutiny and light to something that has suffered 
nothing but shadows and an occasional breakthrough. And it does 
beg the question as to why the coverup? Who are they 
protecting, as I think all of us are concerned about?
    My question to both of you would be in Judge Cory's report 
on Patrick Finucane's murder, he asserted that without public 
scrutiny, this is a quote, ``doubts based solely on myth and 
suspicion will linger long, fester and spread their malignant 
infection throughout the Northern Ireland community.'' Do you 
agree with his assessment, and is this ongoing coverup harming 
the British Government's credibility?
    Mr. Finucane. Yes, I would agree with the assessment. Judge 
Cory concluded, as he did and others who have looked at the 
case, reached the conclusion that not only was the murder of my 
father as a result of the work that he was doing and the 
successes that he had, but also it was meant as a warning to 
other lawyers that if they attempted to replicate his successes 
or employ the same techniques or seek the same successes in the 
courts that he sought and achieved, then they might meet the 
same fate.
    Not only did it represent an attack on the rule of law and 
the position of lawyers as defenders of their clients, but it 
also compromised the ability of people to achieve their right 
to an effective legal defense because lawyers had to now 
consider, defense lawyers for the first time now had to 
consider whether they would be putting themselves and their 
families at risk by accepting work that was politically 
unpopular.
    My father was prepared to do this. My mother I think said 
it best in the immediate aftermath of the murder that Pat was a 
professional to such an extent that he would have represented 
the people who shot him, so fervently did he believe in the 
rule of law and the value of maintaining a commitment to the 
rule of law, even in the face of civil conflict. So I think the 
murder definitely had that dimension to it at the time.
    The ongoing effect of the killing, the surrounding 
circumstances, the evidence that has come to light and the 
broken promise given by the British Government at Weston Park 
is to elevate the case to a highly iconic status that is 
capable of being abused as a propaganda tool by people who 
might seek to continue the conflict. I do believe and fear that 
that is a risk.
    And it is also damaging to the British Government, because 
quite simply, they didn't keep their word, and if a government 
is seen as not being capable of keeping its word or acting 
honorably, then it doesn't deserve to be a government.
    It is clear from some of the information that has come to 
light as a result of the recent litigation in Belfast that the 
decision not to hold a public inquiry by the Cameron 
administration was one hotly debated within the Civil Service. 
So even within the British establishment, the danger of going 
back on their word, of breaking the commitment, of welching on 
the promise given in Weston Park, was recognized and 
understood, and many British civil servants, including the 
Cabinet Secretary at the time, argued against it and expressed 
a lot of surprise that the Prime Minister was going down this 
road.
    Mr. Smith. General?
    General Cullen. One of the surprises to me after witnessing 
that the Prime Minister went ahead in publicly addressing the 
Saville Inquiry--and I had occasion to speak to the Secretary 
of State of Northern Ireland about our experience with the My 
Lai Massacre, in which I represented the chaplain in the Peers 
Commission inquiry after the massacre, and how it was necessary 
to redeem ourselves as an institution, and I am talking 
military at that time. We had to reveal what went wrong, 
withhold nothing, and then entrust the American people to place 
their trust back in us again by coming clean on what went wrong 
and trying to make the institutional fixes.
    I suggested to them, and I am not suggesting for a moment 
that my input played any role in the Secretary of State's view, 
but they did take that approach with the Saville Inquiry and 
the Prime Minister was applauded in the Guild Hall Square of 
Derry when he made the announcement acknowledging 
responsibility.
    I thought that he was heading toward that same kind of a 
conclusion in having an inquiry. I had suspected for years that 
there was deliberate delay until Mrs. Thatcher passed away or 
was not able to appear before an inquiry because it was her 
practice on occasion to sit in on the Joint Intelligence 
Committee, which had overall supervisory responsibility for the 
work of the Task Coordinating Group that ran things in Northern 
Ireland. That was a group made up of senior military and police 
officials.
    But I realize now that I was wrong in my assessment. I 
don't think it was Mrs. Thatcher at all. I think it was the 
security people at the top end, MI5 and MI6, and the remnants 
of Special Branch that continue in the police today who, for 
whatever means that were at their disposal, whether it was some 
version of Mr. Hoover's infamous private file cabinet or for 
some other reason, were able to effectively block what I think 
Mr. Cameron was prepared to do but couldn't do.
    Mr. Smith. Thank you.
    Mr. Finucane, in your written testimony, you say the review 
conducted by Desmond de Silva reveals a great of information 
for the first time, but it is nowhere near being a complete 
answer. It is based on a reading of documents without any 
questioning of the authors. Indeed, only 11 witnesses were 
spoken to by de Silva, and 12 written submissions were 
received. No former politicians were interviewed, nor were a 
number of key intelligence personnel, including the former head 
of military intelligence in Northern Ireland, who was in charge 
at the time of your father's murder.
    Then you point out, as if this is not bad enough, on the 
day that the de Silva report was published, Tom King, now Lord 
King, led the public response on behalf of the government. He 
was the Secretary of State for Northern Ireland in 1989 when 
your father was murdered.
    You go on to say, not surprisingly, he rejected calls for a 
public inquiry, claiming that the matter had now been fully 
investigated. It is difficult to conceive, you go on to say, of 
someone with greater conflict of interest than the former 
Secretary for Northern Ireland in 1989. The dangerous suspicion 
that lingers around his defense of the government's position is 
that those responsible for the policy of collusion remain in 
positions of significant influence and will continue to get 
away with it. As a key witness at any potential inquiry held, 
Lord King's rejections of the calls for an inquiry merely add 
insult to injury.
    That is a very, very powerful statement. I know after the 
de Silva report, there were some in the Labor Party who 
suggested that there ought to be a public inquiry. Mind you, 
between 2003 and 2010, during both the Blair and Brown 
governments, they refused a public inquiry, but they may be 
seeing things a bit differently. I am wondering if you might 
want to further elaborate on that statement, because it doesn't 
get any more powerful than that, and your thought as to whether 
or not there might be a reevaluation going on in the House of 
Commons.
    Mr. Finucane. The position of the opposition in the House 
of Commons led by Ed Miliband is that an inquiry will be 
established if they are returned to government. The difficulty 
that arose when Labor was in power between 2003 and 2010 was 
the enactment of legislation that limited the manner in which 
inquiries would be carried out. Ministers would have control 
over the information that appeared before the inquiry and in 
public, and that control would be an absolute discretion, not 
subject to input from any of the parties, and would limit the 
ability of the inquiry to explore important issues publicly.
    Mr. Smith. If I could interrupt, so are the Labor MPs 
suggesting that law would not be applicable in this case? I, 
too, read that law and thought it was unconscionable that the 
ability to veto information from becoming public would lay in 
the hands of the very people who would have the potential 
conflict of interest.
    Mr. Finucane. Well, that was indeed the fear. However, 
since the passing of that law, the Inquiries Act of 2005, and a 
precedent has developed since in relation to a case that arose 
from circumstances in Iraq where the Inquiries Act was not 
implemented in full for that particular inquiry in the case of 
a man called Baha Mousa who was killed by British soldiers, but 
instead the decision as to what material would be withheld and 
what material would be disclosed was left to the inquiry 
chairperson and only the chairperson, and that allowed an 
opportunity for representations to be made in public and some 
measure of debate to be had as to what information the public 
would see. It would not be taking place in a minister's office 
in the way originally envisaged under the terms of the act.
    That precedent was the one we wanted the government to 
follow. That was the one we were discussing with them for about 
a year between 2010 and 2011, when the Cameron-Clegg 
administration took part. We expected when we went to Downing 
Street to be told that this precedent was going to be followed 
because, if for no other reason, we were not asking for 
something to be created for our case; we were simply asking 
them to give us the same as they had given somebody else. But 
that obviously was refused.
    The position of the opposition, as I say, is that they will 
establish an inquiry; they will live up to the promise of 
Weston Park. But until that happens, we have to endure this U-
turn by the Cameron administration. And as if that wasn't bad 
enough, on the day the de Silva report was released, I had to 
experience walking past Tom King in the BBC in London as he 
went into one studio saying I am satisfied no inquiry is 
necessary now, the matter has been fully investigated, and I 
went into another studio saying, well, it hasn't been 
investigated, and the man in the studio next door is someone I 
would really like to ask a few questions of.
    This is just another example of how much damage is being 
done to the government's credibility as a result of both its 
decision and its choice of spokesperson. I can't think of 
anything more insulting than the person who was in charge at 
the time, who was getting briefings from the Force Research, 
Unit, who met some of the people in charge, who was aware of 
the extent of intelligence available to the State, and yet is 
able to get away without having to answer for his actions while 
in office.
    He said that he would have been available to the de Silva 
review if they had asked to speak to him, but it appears they 
did not. In fact, they didn't ask to speak to any politicians. 
And it seems to me that is a glaring void in the process that 
de Silva was asked to undertake and underlines the need for a 
public inquiry, because there are people who should be spoken 
to and should be questioned, who simply have not been up until 
now. And we really have to start doing that before more time 
passes and those people become unavailable.
    Mr. Smith. You referenced the impact that your father's 
assassination had on other defense attorneys. I would just note 
that, on September 29, 1998, 15 years ago, a little under 15 
years ago, sitting right where you sit, and where General 
Cullen sits, we had Rosemary Nelson tell her story, especially 
the death threats that she had received from the RUC, and 
within a year, 6 months really, she had been assassinated with 
collusion all over the place. So killing defense attorneys, 
human rights defenders like your father, had an impact. I am 
sure there are many attorneys who thought they might do this 
very noble work, who decided to take a different path because 
of what had happened to your dad and then what happened to 
Rosemary Nelson.
    So this committee, I can assure you, will stay focused 
until and when the British Government does the right thing, as 
they have promised to do, and that is to conduct a public 
inquiry, and they do need to hold people who allegedly have 
committed collusion to account in a proceeding that will bring 
justice, even at this late date.
    I would like to yield to vice chairman of the subcommittee, 
Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    To you, Michael, and to your mom, I want to say my deepest 
condolences.
    Of course, I am newly elected, so I am kind of getting up 
to speed here. And so a lot of the things you are discussing 
and you are testifying to I am not as knowledgeable about as 
our chairman here, who has done a fine job of keeping up and 
trying to keep the pressure on.
    But I have got some questions, so bear with me, if you 
will. And let me see if I can get some answers.
    You talked about the agreement, was it the West Park--the 
Weston Park----
    Mr. Finucane. Weston Park.
    Mr. Weber. Weston Park. Tell me who made the agreement 
and--tell me about that.
    Mr. Finucane. The original Belfast peace agreement that set 
out the broad structures to be put in place post-conflict were 
agreed in 1998 and somewhat famously concluded on Good Friday, 
1998. And but this was a framework document. It did not go into 
detail in a number of key areas. At that time, there were a 
number of quite fundamental structures of state and government 
under discussion, including reform of the police, the 
implementation of a new legislative assembly, and structures of 
local government.
    The Good Friday Agreement provided a blueprint for how that 
would be put together. But, like most blueprints, it was very 
broad in scope. And it became clear that further negotiations 
would be required several years later as difficulties were 
encountered.
    Mr. Weber. Who was in power during that time?
    Mr. Finucane. At that time, Tony Blair's government was in 
Britain. And Bertie Ahern was the Prime Minister in Dublin. And 
the subsequent--the negotiations subsequent to the Belfast 
agreement of 1998 were--took place in a location called Weston 
Park, and they happened in 2001. And a number of issues were 
discussed, including policing, local justice issues, the 
legislative assembly that would be set up, and so forth.
    Mr. Weber. Including the assassination of your father.
    Mr. Finucane. Yes. And certain cases had become 
particularly prominent because of either suspicions of state 
collusion or failures of investigation by the police, 
allegations of police or army involvement, and so on and so 
forth.
    Mr. Weber. Well, let me spring from that if I could maybe 
to General Cullen.
    And, again, I am just trying to come up to speed and 
catching these names and these events. You are describing a 
situation where there is an informant who was ultimately 
murdered. I think you said he had a drinking problem. So the 
collusion that Michael is describing by government at the 
highest levels here, there is going to be a circle, I am 
assuming, somebody has come in and put together a potential 
list of those who had knowledge or who were somehow either 
complicit or involved. How wide is that circle? Is it ten 
people? Five people? A hundred people?
    General Cullen. I think the collusion that is probably 
several hundreds of people. I would say a good part of the 
Special Branch organization were involved. Certainly, the 
military intelligence unit who was rebranded from time to time, 
but at this particular point in history was innocuously called 
the Force Research Unit. I think they were all involved. And 
the question is, how far up the political chain to whom those 
people reported did it go? That is one of the unanswered 
questions.
    Mr. Weber. Well, and my question is, so if there were 
several hundred back then, because of attrition or, you know, 
mortality or whatever, somehow that circle has narrowed.
    General Cullen. It has narrowed through death, retirement. 
We don't know how far it has been narrowed. The RUC, for 
example, the police were both downsized and rebranded. Now, the 
hope was, and we have gone through this in our own history, 
after a conflict, we have a reduction in force or a RIF. And we 
use those occasions, certainly post-Vietnam, to eliminate 
people who are not at the highest level of the ratings. So you 
get rid of a lot of problems that way. We were told that the 
government simply would not do that. They offered significant 
cash packages to people in the police if they wanted to retire 
in order to reduce the number down. But, unfortunately, what 
happened I think is some of the more capable and ambitious 
people saw lives beyond the police. They could take this cash 
package and go do what private enterprises want. Some of the 
bad apples I think stayed.
    Mr. Weber. Well, I think you used the term ``remnants'' in 
some of your earlier remarks.
    General Cullen. Yes.
    Mr. Weber. Well, so how many--without giving me names, how 
many--if you could interview five or ten people, do you have a 
short list?
    General Cullen. Oh, I would have a short list, certainly, 
Congressman.
    Mr. Weber. Okay. And how short is that short list?
    General Cullen. Of the people still around, I would say it 
is probably 5 to 10 very, very key people who were in prime 
positions of authority then.
    Mr. Weber. Okay. So working--and you made the comments that 
you I think helped in the My Lai Massacre; you represented the 
chaplain, I think.
    General Cullen. The division chaplain, that is right.
    Mr. Weber. Well, the division chaplain. Okay. And you made 
the comment that said you felt at the time, for the American 
public, what needed to be done was all the truth needed to be 
out as to what went wrong.
    General Cullen. Precisely.
    Mr. Weber. And so for the American public to finally feel 
at peace, I guess--I don't want to put words in your mouth--but 
to accept and to feel like progress was being made, justice was 
served, that you had to come clean, so to speak.
    General Cullen. Exactly.
    Mr. Weber. What impetus does the British Government have at 
this point to come clean?
    General Cullen. I think the--the biggest thing that drives 
or should drive any government is to gain or to regain the 
confidence of its people and especially any disenfranchised 
elements in its society. That would describe a significant 
portion of Northern Ireland, who, during the course of the 
conflict, realized that the justice system was not administered 
fairly. The police system did not protect people in an 
equitable manner.
    There has been huge progress made since that time. And 
certainly even in the worst days of the conflict, there were 
heros in the police. A sergeant, Detective Sergeant Johnson 
Brown, who was one of the ones who did key work in 
investigating the murder of Pat Finucane, said at one point he 
feared far more the Special Branch, his own police people in 
the political branch, than he ever feared the IRA. And he 
acquired a key confession at one point that the Special Branch 
then tampered with, removing a part of the tape on which that 
confession was kept. So there were--the ordinary people----
    Mr. Weber. I am assuming he is not still around.
    General Cullen. He is retired now, sir. And his partner had 
a mental breakdown because of the threats and the stress which 
he was under. He has recovered, I understand. But there were 
wonderful people like that who at least allowed ordinary folks 
to say, hey, there are some good cops there who want to do 
their job.
    Mr. Weber. Right.
    General Cullen. But then they were painfully aware, as 
ordinary people were painfully aware, there were cops who 
didn't want to do their job.
    Mr. Weber. So as a committee, as the House of 
Representatives, what can we do? This is probably not the right 
term, to tighten the screws, to bring a heightened awareness to 
help, what can we do from across the big pond to help make that 
a bit more of a--I don't know what the right word is--a 
priority? What do you think we can do?
    General Cullen. You have a tremendous moral voice, 
Congressman. You are listened to across the water. And what you 
in effect can do is empower the politicians who want to do the 
right thing, who want to regain the confidence of the people in 
England, in Northern Ireland, in all parts of the UK, to say to 
the securocrats, who are resisting a public inquiry, you must 
hold this public inquiry. One of the problems Michael just 
spoke about is there is always a danger that those who didn't 
want to sign onto this peace agreement, who for their own 
reasons would want to see this collapse, on both sides, take 
oxygen from the failure to have this public inquiry. We have to 
cut off that oxygen.
    Mr. Weber. One final question, Mr. Chairman, then I yield 
back, and thank you for your indulgence.
    Is there a window of time closing? Because obviously with 
mortality rates and attrition, whatever, 1 year? 3 years? 5 
years? I mean, the sooner the better, obviously. The chairman 
said it, eloquently justice delayed is justice denied. What 
kind of a time frame are we on?
    General Cullen. That is a tough question. I would say 
anybody in my age range who would have been around at that time 
is looking at his own mortality tables, and you begin to 
wonder. Stobie was murdered; Brian Nelson, a key actor, died 
under very mysterious circumstances. Other people have 
disappeared. The time is taking its toll on the justice system. 
And we may get to a point where even if the government were 
under a new government or this government in the UK decided to 
do the right thing, it may be too late.
    Mr. Weber. Thank you Mr. Chairman. I yield back.
    Mr. Finucane. Could I just add one thing? Mr. Weber asked 
what could Congress do. By making this an issue that continues 
to be of concern to Congress and perhaps communicating that 
where you can but particularly to the White House, the 
continued contact that takes place between the administration 
here and that in Britain and the notion that Pat Finucane is 
always going to be a subject of conversation until the issue is 
resolved is the greatest moral force you can bring to bear, 
perhaps starting with a letter that the chairman is circulating 
for Members' consideration and signature.
    And then why not the G8 summit? That is happening in 
Northern Ireland in the very short future. It may not be an 
issue that touches on every world leader's agenda, but 
certainly the British and Irish--or the British and American 
premiers will be there. It should be a conversation happening 
between the President and the Prime Minister because it is 
important, and it is an unresolved issue. And amidst all the 
problems that people are trying to sort out in Northern Ireland 
in 2013, problems with unemployment and so on and so forth, 
they have got this historical problem, a hangover from the bad 
old days, that is not going away but could be made to go away 
if the British Government would simply do what it promised to 
do.
    So I think that is a real practical step that Congress can 
take. And it may yield great fruit.
    Mr. Weber. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Smith. Thank you very much, Mr. Vice Chairman.
    I think Mr. Weber makes a very good point about, you know, 
this could lead to a cold case, and by design, it could lead to 
a cold case. All the more reason why we need to continue our 
vigilance and our very energetic efforts so that it does not 
happen. But eventually, the truth does come out, over time. But 
it ought to come out in a way that is actionable, particularly 
with potential prosecutions, and certainly public inquiry will 
finally lay out the information.
    So can you tell me, Michael, more about the ongoing 
litigation in which you and your family are seeking a court 
order to the British Government requiring it to conduct the 
inquiry it committed to in 2001? Where is the litigation now 
and how is that proceeding?
    Mr. Finucane. Proceedings were instituted after the 
decision of the British to appoint Desmond de Silva.
    Mr. Smith. In what court, what venue?
    Mr. Finucane. In the Belfast High Court.
    The case essentially seeks an order of certiorari quashing 
the decision by the government not to hold an inquiry and an 
order of mandamus requiring them to establish one.
    The proceedings were instituted not long after de Silva was 
appointed to carry out his review. We initially gave some 
consideration to seeking a restraining order to stop de Silva 
from carrying out his work. But it was felt that de Silva might 
conceivably disclose material that could be helpful even though 
the process could never satisfy the requirements of a public 
examination. So the main proceedings have simply continued, and 
there has been the usual back and forth that you find in 
litigation between the government and our lawyers. But most 
recently, some interim hearings have taken place, where we have 
sought discovery of documents relating to the case, including 
previously classified intelligence documents dealing with the--
dealing with the murder at the time itself. And a lot of those 
were revealed. Some of them were already public in one form or 
another, so they were collated during the course of the 
proceedings. But the government sought to withhold certain 
internal communications between security advisers and the Prime 
Minister. And the letter that I referred to in my testimony 
came to light only in April of this year. And the contents of 
it and the expressions of serious concern about the 
circumstances of the case and its comparison with events that 
have transpired post-9/11 and to Iraq and Afghanistan and how 
it compares on the scale with those.
    The hearing took place in April. The judge hearing the case 
decided he would review the documents himself. And so the 
government was ordered to supply whatever it wanted to hold 
back so that the judge would review them and make his decision. 
As I understand it, he has received those documents, and we are 
awaiting a date for his ruling.
    After that, it will proceed to a full hearing on the 
merits, where we hope we will achieve the orders that we are 
seeking.
    Mr. Smith. Without objection, the testimony of Jane Winter, 
Former Director of British Irish Rights Watch will be made part 
of the record. Your full statements as well will be made part 
of the record. A submission from the Government of the Republic 
of Ireland will also be made part of the record. And they do in 
their testimony say quite emphatically, ``The Irish Government 
will continue to seek a public inquiry into the murder of Pat 
Finucane as committed to in the agreements.''
    In her statement, Jane Winter points out that ``the de 
Silva report missed three crucial aspects in the case. One, he 
has misunderstood the guidance available on agent handling and 
its adverse impact on the detection and prevention of a crime. 
He has omitted to investigate the fact that British Army 
intelligence tampered with evidence, and he underplays the role 
of the intelligence service in the case.'' Would either of you 
like to comment on that?
    Mr. Finucane. I think in general terms de Silva is 
unsatisfactory because he lays too much blame at the door of 
defunct organizations, like the RUC, or individuals who are 
dead or no longer available. And that is--that is very 
unsatisfactory and, in our view, inaccurate. There are--there 
are people he could have spoken to but didn't. And there are 
conclusions that could have been reached, but he chose not to 
do so, even within the terms of his very limited mandate. And I 
think the extent to which he was prepared to conclude that 
something didn't happen because he could not see clear evidence 
of it is very unsatisfactory and glosses over the obvious 
technique of putting together various pieces of evidence and 
forming a reasonable conclusion based on them.
    And he also chose to reject the evidence of some people who 
were involved in the intelligence services who said they saw 
documents and additional materials that were no longer in 
existence, but they were quite clear did exist at one time, 
including targeting information and information about my 
father's personal habits that was gained as a result of 
surveillance, surveillance which we suspect was carried out 
either by the police or the army. And the unwillingness to 
reach those conclusions and frustration with the process 
itself, that it is not public, that you can't ask questions of 
the people involved, that you can't assess all of the evidence 
and all of the documents for yourself, leaves de Silva in a 
very unsatisfactory condition insofar as the mechanism is 
concerned. And it is something of a starting point, but I don't 
really think it can be seen as anything more than that, and it 
is certainly not a finished exercise.
    Mr. Smith. Jane Winter makes the point in her statement 
that the report, the only real value it has, in her opinion, is 
that it confirms collusion, vindicates Patrick Finucane, and it 
in itself makes a compelling case for a public inquiry. One of 
the findings in the de Silva report that she amplifies in her 
statement is that he has confirmed that 85 percent of the UDA's 
intelligence came from security forces. She also points out 
that he has shed light on the briefings given to a government 
minister prior to the murder; 85 percent of intelligence coming 
from security forces. If that isn't damning, I don't know what 
is.
    General.
    General Cullen. Well, it goes back to the point I was 
making before: When you have intelligence operations from 
different entities in the same theater, you have to have 
coordination at the top. And given the 85 percent number, which 
I read also, it did confirm to me that it was more than simple 
idle chat at the top; there was active coordination in not only 
Pat Finucane's murder but in the murder of other innocent 
people.
    Mr. Smith. We have one final question, and then if you 
would like to make any concluding remarks.
    What effect do you think the inquiry, according to the 
terms committed to in 2001, would have on the peace process in 
Northern Ireland?
    Mr. Finucane. I think--I think the final establishment of 
an effective, comprehensive, public judicial inquiry would 
address what has become the last great historical issue for the 
British Government in the Northern Ireland conflict, certainly 
the most substantial one remaining unaddressed. And there has 
been a great deal of improvement in investigative mechanisms 
locally. Inquests have been improved in terms of their capacity 
to examine killings in Northern Ireland. And there are 
controversial cases that have not been resolved. There are 
still campaigns by interest groups and relatives for a proper 
examination of the deaths of their loved ones. But they don't 
have to go for a public inquiry anymore because the domestic 
mechanisms, the local mechanisms have been improved and 
strengthened.
    We are left with a public inquiry because so many state 
agencies are involved that no other mechanism seems capable of 
addressing the issues. And we are becoming, if you like, 
somewhat isolated in that category because we are the last 
remnants of the cases I highlighted at Weston Park that 
required a public tribunal of inquiry type of mechanism. And 
that is really not good.
    This hearing, I know, is receiving a lot of attention in 
Ireland and Britain. It is an issue that when matters come to 
light it dominates the news headlines. When we were in London 
in 2012 for the release of the de Silva report and were in the 
House of Commons, the case was front page news. Anyone saying 
this has gone away or this is becoming less important or the 
people feel less strongly about it is clearly wrong. And that 
has to erode confidence in the rule of law in Ireland. And what 
obviously--well, perhaps not obviously, but I do believe the 
opposite is true. If the British can finally grasp the nettle 
in this one case, in the case of Pat Finucane above all others 
and really come clean and explain what went on and make the 
witnesses available and reveal the documents and just get it in 
all gone in one go finally, I think the boost to confidence 
would be immeasurable. Because I think the feeling of people on 
the ground is quite simple: They can't bring themselves to 
admit it, even now. And it is hard to argue with that when you 
see the evidence in the case and the broken commitments. And I 
really think the commitments need to be lived up to. And I 
think the benefits, the potential benefits are very real, and 
they are there for all to see.
    General Cullen. We had tragic examples in our own country 
back in the 1960s, where civil rights workers were murdered, 
and there was often collusion by local policemen. But we had 
the FBI. We had Federal courts. We had this Congress to 
investigate and set things straight and say that there is a 
rule of law and it is going to apply to everyone. That is not 
the case in Northern Ireland while there is a refusal of the 
government to have this promised inquiry. We are ultimately 
talking about a government who colluded in the murder of one of 
its own citizens and now refuses to reveal the extent of that 
collusion, who sanctioned it from above. Until there is a 
willingness to address this in a credible way, I am afraid 
there will not be the restoration of confidence in the rule of 
law and in the government itself. And it will give dissident 
factions on all sides an opportunity to say, how can you trust 
this government? If you have got connections with the top, you 
can do anything you want. There is no accountability. That is 
unsafe for any government. We don't want to see that happen.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    This committee, as you know, walks point on human rights. 
It is vested with the responsibility for the Foreign Affairs 
Committee and, by extension, the full House of Representatives 
to bring the light and scrutiny to human rights abuses anywhere 
and everywhere they occur and to hopefully craft legislation 
that meets the needs of those who are victimized.
    I can assure you, both of you, and, Michael, you as a son 
who has carried on your father's tradition as a solicitor and 
has done so with great class and courage, that we will not rest 
until the public inquiry occurs, and we well do all within 
the--and I say this in a bipartisan way because there are 
people on both sides of the aisle who feel as passionately as I 
do, that justice delayed is justice denied, as I said earlier, 
and there needs to be a public inquiry and it needs to be done 
now. And we will keep bringing our voice as a committee and 
individually as an individual Members of Congress to bear until 
that day occurs.
    If you would like to make any final--although what you just 
said was a wonderful concluding statement--but if you have 
anything further you would like to say before we conclude.
    Mr. Finucane. No. Other than to thank you again, Chairman, 
and the committee members for your time and your support, I 
don't have anything further to add.
    Mr. Smith. Thank you.
    General Cullen. I would just like to join in Michael's 
thanks for your hospitality and your willingness to hear us 
today.
    Mr. Smith. Thank you so much. The hearing is adjourned, and 
we will be convening momentarily to proceed to a markup of 
three pieces of legislation. But this hearing is adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
